<html>
<title> - BLUE, GOLD, AND GREEN: HOW DELAWARE STATE AND LOCAL GOVERNMENTS ARE CUTTING THEIR ENERGY COSTS</title>
<body><pre>[Senate Hearing 111-725]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 111-725

                  BLUE, GOLD, AND GREEN: HOW DELAWARE
                    STATE AND LOCAL GOVERNMENTS ARE
                       CUTTING THEIR ENERGY COSTS

=======================================================================

                                HEARING

                               before the

                FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT
                   INFORMATION, FEDERAL SERVICES, AND
                  INTERNATIONAL SECURITY SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                 FIELD HEARING IN WILMINGTON, DELAWARE

                               __________

                           FEBRUARY 19, 2010

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE
  56-841 PDF               WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b4d3c4dbf4d7c1c7c0dcd1d8c49ad7dbd99a">[email&#160;protected]</a>  







        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
PAUL G. KIRK, JR., Massachusetts

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
                                 ------                                

 SUBCOMMITTEE ON FEDERAL FINANCIAL MANAGEMENT, GOVERNMENT INFORMATION, 
              FEDERAL SERVICES, AND INTERNATIONAL SECURITY

                  THOMAS R. CARPER, Delaware, Chairman
CARL LEVIN, Michigan                 JOHN McCAIN, Arizona
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
ROLAND W. BURRIS, Illinois

                    John Kilvington, Staff Director
                     John Collins, Legislative Aide
    Bryan Parker, Staff Director and General Counsel to the Minority
                   Deirdre G. Armstrong, Chief Clerk















                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Carper...............................................     1
Prepared statement:
    Senator Carper...............................................    31

                               WITNESSES
                       Friday, February 19, 2010

Hon. Jack Markell, Governor, State of Delaware...................     5
Chris Coons, County Executive, New Castle County, Delaware.......    14
Roy Whitaker, Chief of Buildings and Grounds, Seaford School 
  District, Delaware.............................................    19
James Baker, Mayor, City of Wilmington, Delaware.................    25

                     Alphabetical List of Witnesses

Baker, James:
    Testimony....................................................    25
    Prepared statement...........................................    46
Coons, Chris:
    Testimony....................................................    14
    Prepared statement...........................................    39
Markell, Hon. Jack:
    Testimony....................................................     5
    Prepared statement...........................................    34
Whitaker, Roy:
    Testimony....................................................    19
    Prepared statement...........................................    44

                                APPENDIX

Charts referred to by Senator Carper.............................    50

 
                  BLUE, GOLD, AND GREEN: HOW DELAWARE
                    STATE AND LOCAL GOVERNMENTS ARE
                       CUTTING THEIR ENERGY COSTS

                              ----------                              


                       FRIDAY, FEBRUARY 19, 2010

                                 U.S. Senate,      
        Subcommittee on Federal Financial Management,      
              Government Information, Federal Services,    
                               and International Security  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:35 a.m., at 
the Carvel State Office Building, 820 North French Street, 
Wilmington, Delaware, Hon. Thomas R. Carper, Chairman of the 
Subcommittee, presiding.
    Present: Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Welcome, one and all, to our hearing. We 
will be joined by others as the day goes on. Governor Jack 
Markell is kind enough to be with us until about 11 or 11:15 
a.m.. We will promise to have him out the door by then.
    I remember some wonderful memories of being in this room 
and announcing some exciting initiatives in the past and to be 
able to be with our governor today and to hear what the State 
of Delaware is doing to lead the way in important areas, is a 
source of real joy.
    The last few years have underscored the need for our Nation 
to rethink the way we use energy. Ever-changing energy costs 
and our Nation's severe economic problems have resulted in 
families, homeowners, and businesses all taking a very hard 
look at how they are spending their resources--and governments 
should be no different. In fact, they are no different.
    Last month, I held a hearing of this Subcommittee in 
Washington to explore what the Federal Government is doing to 
save energy and money for our taxpayers. Late last year, 
President Obama issued an Executive Order calling for the 
Federal Government to step up its efforts to conserve energy by 
challenging agencies to meet a number of energy, water, and 
waste reduction targets. Each Federal agency is required under 
that Executive Order to develop plans to reach those targets, 
and we expect initial reports on the status of these plans 
later this year.
    One of my former staff members used to say, the cleanest, 
most affordable form of energy is the energy we never use, and 
I fully subscribe to that and so does our President.
    We learned in our hearing, though, that the Federal 
Government is the single largest energy user in the Nation. In 
fiscal year 2008, the total energy consumption of the Federal 
Government in all of our buildings and operations was roughly 
1.5 percent of all energy consumption in the United States. The 
energy bill for the Federal Government that year was just under 
$25 billion, or about one percent of total Federal 
expenditures. Of that roughly $25 billion, over $7 billion was 
spent on energy to operate Federal buildings alone, and with a 
price tag that large, there are significant opportunities for 
savings of taxpayers' dollars. Following our hearing, the White 
House announced that over $10 billion would be saved over the 
next 10 years because of the Federal Executive Order, and that 
is real money that we are talking about.
    While the President's Executive Order represents an 
important step forward, there is a lot more that we can do. 
Making better use of new financial tools is just one example. 
Energy savings performance contracts are a creative way to pay 
for energy efficiency projects, and these contracts work, as 
you may know, by having a company pay out of their own pocket 
to renovate a facility with energy-efficient retrofits. The 
company's contract is then paid back out of the energy savings 
generated from the renovations, which otherwise would not 
occur.
    This means that governments can reduce their energy use, 
can help clean up the environment, can cut back on money that 
they have to spend for heating and lighting, and do it all on 
someone else's dime. To me, that seems like a very clear win 
for really just about everyone.
    I believe that several of our witnesses today have 
experience with these types of contracts and I look forward to 
hearing their thoughts and suggestions on how those contracts 
can be used most effectively, not just in Delaware, but across 
the country.
    There is an old saying that goes something like this: You 
can't manage what you can't measure, and that applies to energy 
use, as well. At a recent hearing, I learned that using 
technology such as advanced metering is one way we can save 
energy and money. By connecting facilities across an 
organization and monitoring buildings, or even parts of 
buildings, on their energy use in real time, managers can make 
more effective decisions. The best part about advanced metering 
is that it pays for itself in less than a year. Do we have a 
chart that shows that?
    Mr. Collins, where are you from?
    Mr. Collins. Townsend, Delaware.
    Senator Carper. Where did you go to school?
    Mr. Collins. University of Delaware.
    Senator Carper. A Blue Hen?
    Mr. Collins. Yes.
    Senator Carper. That is great. What kind of degrees do you 
have from there?
    Mr. Collins. I have an international relations degree and a 
Master's in Public Administration.
    Senator Carper. All right. Well, we have a chart that shows 
what the pay-back periods are for a couple of different 
approaches for energy conservation, and the top one there 
says--renewable electricity, and it looks like the payback time 
there is how many years? Eighteen years.\1\
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Carper appears in the Appendix 
on page 50.
---------------------------------------------------------------------------
    Coming on down, what is the next one?
    Mr. Collins. The building envelope.
    Senator Carper. Building E-N-V, building envelope. And it 
looks like the payback there is about 9\1/2\ years. What is the 
next one, HVACs. The payback is about 7 years. Lighting, 
payback is about six years. We spend a whole lot of money. A 
lot of our utility money just goes for lighting, and there is 
great stuff, as the governor knows, that is going on right here 
in Delaware by small companies and by big companies like DuPont 
to help us cut dramatically our lighting bills.
    What is the next one, co-gen? Co-gen payback on co-gen is 
just under 5 years. And look at that last one, advanced 
metering. It is not 2 years, it is not 1 year, it looks like a 
couple of months. And so what we are talking about is a real 
return on investment, a wonderful return, and the kind of thing 
that we want to incentivize. But thank you for joining us.
    Wal-Mart uses this technology, advanced metering 
technology, because they understand the financial savings that 
it brings. From their headquarters in Bentonville, Arkansas, 
they will know if a freezer door is left open for too long at 
their operations in Middletown, Delaware.
    And it isn't just an idea for big businesses, either. Later 
this year, Delmarva Power will finish installing advanced 
metering systems for all of its approximately 300,000 customers 
across Delaware. This technology will provide greater 
transparency for energy users, allowing them to better manage 
their energy use to save money and help protect and preserve 
our environment.
    As a recovering governor, I know that Washington doesn't 
have all the answers. In fact, we may not even have most of 
those answers. In my time as Chairman of the National Governors 
Association, I have seen the importance of sharing solutions 
and best practices, not just between the States, but between 
the Federal Government, our partners in State, and local 
government, and to learn from one another.
    The challenges we face in Washington are often dealt with 
first in State capitals, cities, and small towns across our 
Nation. And today, perhaps no problem looms as large as the 
impact that the ongoing financial crisis has had on government 
budgets, both local, State, and at the national level. In the 
face of significant budget shortfalls, State and local 
governments are looking for ways to cut their operating 
expenses, just as we are in Washington.
    Delaware is no different. In fact, from Woodburn to 
Wilmington to Wyoming, Delaware governments understand that 
saving energy isn't just good for the environment, it is good 
for the bottom line. And when I say Wyoming, I mean Camden, 
Wyoming, not the State.
    It is important to remember the cleanest, most efficient, 
and cheapest energy is the energy you never use, as said 
before. Governor Markell certainly understands this. The 
Executive Order will be introduced, I believe, this week, and 
which he will speak about, in a few minutes, creates clear, 
ambitious goals for making Delaware State Government leaner and 
more efficient, combining fiscal responsibility with 
environmental responsibility, while nurturing the State's 
burgeoning clean energy economy. It is a clear win for 
Delawareans.
    Later this morning, Chris Coons, our Chief Executive or 
County Executive of our State's most populous county, will be 
with us. He also understands the link between energy efficiency 
and fiscal responsibility. Coming into office, he faced a 
budget swollen from the real estate bubble of the last decade 
and recognized the need to rein in spending. He has led an 
effort to not only save energy and money, but to improve the 
quality of service provided to the people of New Castle County.
    As well, the City of Wilmington and the Seaford School 
District have both been nationally recognized for being energy 
pioneers. Seaford School District, which I visited myself many 
times, is a shining example for what dividends a commitment to 
energy efficiency can have not for just small towns, but for 
small school districts.
    The City of Wilmington, too, has shown how government can 
successfully work together with businesses and developers to 
achieve these goals. It is clear we have a number of lessons to 
learn from our partners in the State and in our local 
government.
    During these times of mind-boggling budget deficits, 
governments need to find every way that we can to better manage 
our operations and finances, and we also need to find ways to 
put Delawareans back to work.
    In closing, let me just add, the scope of assets held by 
State and local governments is wide. By leveraging buying 
power, making wise and prudent use of taxpayers' dollars, 
governments can provide secure demand for sustainable small 
businesses and for entrepreneurs.
    With that in mind, I want to thank our first witness 
especially, our governor, for really a superb job that he is 
doing as our Chief Executive. It has been a joy, as I said to 
him privately many times, to work with him and his 
administration. We are interested in learning how the rest of 
us, other States, but the Federal Government, as well, can 
learn and benefit from what we are doing in Delaware. So thank 
you for being with us today.
    I was kidding earlier. I said, normally, we don't swear in 
our witnesses and ask them to take an oath that everything they 
say is the truth, and we are not going to do that today, 
either, because I believe it all.
    Right behind him is our Secretary of the Department of 
Natural Resources and Environmental Control. I just want to say 
welcome to Mr. O'Marra and thank him for the great job that he 
is doing. Thank you.
    Governor Markell, it is all yours.

 TESTIMONY OF HON. JACK MARKELL,\1\ GOVERNOR, STATE OF DELAWARE

    Governor Markell. Well, thank you, Senator Carper, for 
holding this field hearing here in Delaware and inviting me to 
participate today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Governor Markell appears in the 
Appendix on page 34.
---------------------------------------------------------------------------
    We stand at a critical juncture. We are working hard to 
make our economy stronger, but we still have too many of our 
fellow residents out of work. State revenues are down 
significantly at a time when our citizens need government 
services the most. And this reality has really forced us to 
develop new and innovative approaches to stimulating economic 
growth and to making strategic investments that are going to 
produce long-term results.
    Now, fortunately, Delaware's economy has some strengths 
that will help accelerate our recovery. We have a proud 
tradition of innovation. We have the four Cs--chemicals, cars, 
credit, and chickens--which have led the Nation for 
generations. But in the past year, we have had setbacks, like 
many parts of the country, with the closure of two automobile 
plants, layoffs in the financial services sector, and the 
shutdown of a large refinery. Yet despite this, we remain 
confident in our future.
    We are seeing the emergence of a fifth C, clean energy or 
clean tech. In Delaware, when we talk about environmental 
sustainability, we are really talking about creating good-
paying jobs, many of which cannot be outsourced. We are talking 
about the greening of the economy to make ourselves more 
economically competitive as we move toward a low-carbon future.
    An important first step toward emerging as a clean energy 
economy is embracing energy efficiency and conservation in our 
homes and businesses and new buildings, and as you said, the 
best savings is the energy we don't use. And beyond that, 
investments in greater energy efficiency put people to work now 
and it pays dividends for the future.
    Every dollar that is wasted from inefficient energy usage 
is a dollar that is not put to work getting our economy moving 
in the right direction. And for every million dollars we invest 
in energy efficiency, our economy can actually produce 15 to 25 
jobs, in addition to substantial long-term savings.
    And for this reason, a key focus of our energy agenda 
during my first year in office was, in fact, energy efficiency. 
So during 2009, we made numerous improvements to State law with 
respect to energy issues, including adopting progressive 
building codes. We also passed the Energy Efficiency and 
Conservation Act of 2009, and this legislation established 
Delaware's new Energy Efficiency Portfolio Standard, and that 
is a requirement that all electric and natural gas distributors 
in Delaware reduce consumption by 15 percent by 2015. That will 
save taxpayers money on their energy bills. And we are also 
working with our Public Service Commission to protect taxpayers 
and ensure that the savings are passed on through to the 
customers.
    In addition, we worked to pave the way for more solar, 
photovoltaic, and wind systems in municipalities and 
subdivisions, and we adopted some needed changes to metering 
requirements, allowing people who invest in renewable 
technologies to reap more rewards for their foresight.
    Now, these new improvements in public policy energy 
infrastructure were the principal drivers for Delaware being 
nationally recognized this past summer by the American Council 
on an Energy Efficient Economy (ACEEE). I had the pleasure of 
going to the National Press Club in Washington to speak on our 
State's behalf because Delaware was recognized as the most 
improved State in the Nation with respect to programs aimed at 
improving energy efficiency. And while we were recognized as 
the most improved, we also know that we have got a ways to go. 
And it is clear that in addition to making sure that we have 
got the right incentives, the right laws, and the right 
policies on the books, we have got to do more to walk the walk. 
And for this reason, putting our own house in order and leading 
by example is a top priority for us this year.
    So just this past Wednesday, 2 days ago, I signed Executive 
Order Number 18, and we call it the Leading By Example 
Executive Order, which is exactly what we, in government, ought 
to be doing. So let me just talk about what the order does. It 
specifies that new State construction will be built to the 
Silver standard, or its equivalent established by the 
Leadership in Energy and Environmental Design (LEED) Council.
    Second, it sets a target for State agencies to reduce their 
energy consumption by at least 10 percent by the end of fiscal 
year 2011, 20 percent by the end of fiscal year 2013, and 30 
percent by the end of fiscal year 2015. It requires audits of 
State facilities for energy efficiency opportunities. We 
establish a system and procedures to benchmark, to monitor, and 
to track the energy use and carbon emissions of all State-owned 
and State-leased facilities.
    It sets a goal for purchasing 30 percent of the State's 
electrical energy needs from renewable sources by the end of 
fiscal year 2013. It specifies a 75 percent diversion rate for 
solid waste leaving State facilities through reducing, reusing, 
and recycling waste products.
    It sets a goal of reducing petroleum consumption by 25 
percent, vehicle emissions by 25 percent, and vehicle miles 
traveled by 15 percent by the end of fiscal year 2012. It 
specifies green computing practices that will save both money 
and paper. And it requires more sustainable purchasing 
practices and policies.
    Now, these actions are anticipated to save the State 
significant money in the coming years, but also to create jobs 
and significantly reduce the environmental footprint of State 
Government. And by being smarter about the way we use and buy 
energy, we can enjoy significant savings.
    So as one example, the Division of Facilities Management in 
the Office of Management and Budget created what we call an 
Energy Aggregation Partnership. The partnership totaled the 
demand for electricity of many of the State's facilities and a 
reverse auction was conducted to purchase the electricity for 
these facilities. The end result was an estimated $22 million 
in savings in electrical costs over the 3-year life of the 
contract compared to existing service provider rates. The 
aggregation partnership includes counties, municipalities, 
school districts, and is now beginning to plan its second 
iteration of bidding, which will potentially save the State 
even more in energy costs in the future.
    But government cannot do it all. We need to leverage 
private outside investment, and now with the American Recovery 
and Reinvestment Act, we have got substantial help coming from 
Washington, and I want to thank you specifically, Senator 
Carper, for doing everything you have done to advance our cause 
in Washington.
    And while the Recovery Act was a blessing last year on a 
number of fronts, the assistance and focus on clean energy is 
especially appreciated. We need to use this opportunity to 
transform our economy and the focus in the Recovery Act on 
clean energy and jobs is just the sort of shot in the arm that 
we needed in Delaware.
    Now, another key is allowing innovation to flourish. One of 
the truly innovative ideas coming out of Delaware is the 
concept of a Sustainable Energy Utility (SEU). Now, under the 
leadership of State Senator Harris McDowell, Delaware created 
this utility to provide energy efficiency and renewable energy 
services to Delawareans across the State.
    SEU is an innovative means of providing energy services to 
residents and businesses alike and will be the principal 
distributor of Federal Recovery dollars which are dedicated to 
energy efficiency. Under its new banner, which is ``Energize 
Delaware,'' the SEU is, in fact, a model for the Nation and we 
are proud to once again be leading in the provision of energy 
services.
    Now, one significant task for the SEU will be to implement 
the results of the audits conducted under the Leading by 
Example Executive Order. Through use of the SEU's bonding 
authority, we can retrofit State buildings, some of which are 
over 30 years old, including this building, to update the 
systems that provide heat, air conditioning, electricity, and 
water. Now, these improvements are going to save taxpayers 
money. They will result in new jobs for Delawareans. And they 
are not going to require any up-front expenditure by State 
Government, thanks in part to the Recovery Act, which will be 
used to help pay for these improvements. And it will, in fact, 
bring jobs to Delaware.
    Through innovative public-private partnerships, we hope to 
catalyze substantial private sector investment in the energy 
efficiency technologies and services. So today, in Delaware, we 
are seeing a lot, dozens of great building projects that 
demonstrate the opportunities to incorporate energy efficiency 
and sustainable elements into new construction. I have had the 
chance to attend several events dedicating LEED buildings, 
including multiple LEED Platinum projects.
    Now, while some people have raised concerns about the 
increased costs of building green, some local builders have 
recouped the additional investment in less than a couple of 
years. But just as important as the savings is the fact that 
these construction jobs and construction projects produce good 
paying jobs. We are committed to finding creative ways to move 
beyond the handful of LEED projects and help ensure that we are 
greening more of our projects in the State, helping all of our 
residents benefit from sustainable design and construction and 
supporting good paying jobs for years to come, and that is 
really the final point that I want to make.
    We should not think of our efforts to modernize facilities 
and adopt cleaner energy as simply an environmental initiative, 
although it is that. But it is also a jobs initiative. In 
Delaware alone, we are seeing some of the most exciting 
innovations in the State emerging in the fields of energy 
efficiency, renewable energy, building materials, alternative 
fuels, and advanced transportation. As you mentioned, lighting.
    So we are seeing companies like White Optics--another is 
PTM, insulated ductwork, B.F. Rich, windows--all of them 
producing great technologies that reduce energy consumption and 
generate rapid savings. Another exciting company, Motech, 
recently purchased the former G.E. solar plant and is making 
photovoltaic panels here in Delaware. DuPont has a series of 
products that will make solar panels more efficient and 
dynamic, particularly as the next generation innovations in 
thin film come to the market. W.L. Gore, DuPont, and Ion Power 
are leaders in the fuel cell industry. Autoport is converting 
traditional vehicles to electric. And Blue Water Wind is 
planning the first offshore wind farm in the Nation off the 
coast of Rehoboth. The list goes on and on.
    One of the best examples of our innovation economy is the 
repurposing of Delaware's two automobile plants. The Chrysler 
plant in Newark has been purchased by the University of 
Delaware and will be the home of groundbreaking research. And 
at the former GM plant, Fisker Automotive is going to 
manufacture their plug-in hybrid sedan with the help of a 
critical loan guarantee from the Department of Energy.
    In each case our State's responsiveness and commitment to 
business success resulted in a positive outcome for Delaware 
workers and a growing innovation economy, and we are working 
hard to achieve a similarly successful outcome at the Valero 
facility in Delaware City.
    So throughout Delaware, we are fostering a vibrant, 
functioning market for cutting-edge companies not only to 
succeed, but to put people to work making things in Delaware. 
It is not enough to create demand for energy efficiency and 
renewable energy technologies. We have also got to be 
thoughtful about maximizing the economic benefits from these 
initiatives. We cannot trade our dependence on foreign oil for 
a new dependence on Chinese-made solar panels, on Japanese 
electric vehicles, and on European wind turbines. We have got 
to work to seize these economic opportunities here at home.
    And for this reason, I ask that the Congress continue to 
look at ways to help American companies succeed in serving 
these emerging markets. We need to create an innovation 
ecosystem where entrepreneurship can flourish. We need to use 
every ounce of American ingenuity to strengthen the economy for 
the next century, and it is not enough to just innovate, but we 
have got to scale up the production here at home and to deploy 
these technologies.
    We, in government, have an opportunity to stimulate the 
market demand through thoughtful procurement goals. We need to 
expand the loan guarantee programs that are providing the 
critical access to capital to help companies grow. We need to 
allow companies to invest in the research and development that 
will drive future innovations. We need to support domestic 
manufacturing. We need to help train the workforce so local 
residents are equipped to enter these new, exciting fields. We 
have made some progress in Delaware, but there is a lot more to 
be done.
    And I do want to recognize the excellent efforts of New 
Castle County, Kent County, Sussex County, the City of 
Wilmington, our local governments, a number of school 
districts--Milford, Cape Henlopen, Smyrna, Brandywine, 
Appoquinimink, Caesar Rodney, Christina, Sussex Tech, Seaford--
our local universities and colleges for all their notable 
actions to implement green technologies and improve energy 
efficiencies in the schools they are building or renovating.
    And I would be remiss if I didn't publicly and proudly 
recognize the great efforts being led by my colleagues on the 
panel today, New Castle County Executive Chris Coons, 
Wilmington Mayor Jim Baker, and Roy Whitaker from the Seaford 
School District. They have been statewide leaders in these 
issues.
    So I thank you for the opportunity to present this 
testimony. More importantly, I very much appreciate your very 
clear commitment, which has been demonstrated over a number of 
years. Before the title of green energy and green technology 
was really bandied about, you were not just talking about these 
things, you were doing something about them. And the fact that 
you continue to be a leader for us in the U.S. Senate is a big 
deal for the country, but it is also a very big deal for 
Delaware. We are very grateful to you for it.
    Senator Carper. Thank you for those kind words. Thanks very 
much for your testimony and thank you very much for walking the 
walk and providing the kind of leadership that you are and that 
Delaware is now providing.
    I want to just go back and start off by asking you just to 
reiterate again the steps that the Federal Government can take 
to support and to be, if you will, part of the wind beneath the 
wings of the State in the State's efforts in these regards.
    Governor Markell. Well, I think there are a few things. I 
mean, first of all, the loan guarantees can be very significant 
because when you think about these projects being built out, 
and particularly in the renewable arena, whether or not these 
projects get built out in this country is largely dependent 
upon two things. What is it that taxpayers pay? And the second 
is, what is it that--how much does it cost the companies to 
build?
    So the cost of capital is just a critical component of 
whether or not the industry is going to take off here, and so I 
believe that the loan guarantees are a very significant 
component of that.
    As you know, I was recently in Europe and it is just, 
frankly, amazing that in offshore wind, specifically, that 
industry is thriving. There are 800 offshore wind turbines in 
Europe today. There are zero in the United States. We are a 
decade behind.
    And part of that is because the European governments, not 
at necessarily the European Union level, but the specific 
country governments recognized a decade ago what the 
opportunities would be from an economic development 
perspective. So in Germany, for instance, I understand that a 
decade ago there were 20,000 people working in the renewable 
energy sector. Today, there are 200,000.
    And we have to recognize--I think it is sometimes a mistake 
when we talk about all of these initiatives just from the 
perspective of being the right thing to do on the environmental 
side. These are also, as you have been pointing out--I think 
you were talking about this as early as any public servant that 
I know of--you were also talking about this as an issue of 
national security in terms of reducing dependence upon foreign 
oil and sending money to folks who were going to use it against 
us, but also the economic development implications in terms of 
job creation are very significant.
    So we believe the loan guarantees are important. Your 
efforts to continue to support research and development is also 
important because we want these technologies to be developed 
here as well as implemented. So those are just a couple of 
things.
    Senator Carper. Good. Thank you for those responses.
    You have grappled as governor for over a year now with 
dwindling revenues and the need to cut spending in order to try 
to balance the State's books, and you have done, with the help 
of the legislature, a very commendable job.
    I had the good fortune of being governor, at least for most 
of my 8 years, we had a time where it was a rising ship, rising 
tide that lifted a lot of boats, including our own. But you 
have really done well with the tough hand that has been given 
to you.
    We are trying to grapple with deficit reduction in 
Washington. I am encouraged by some of the President's 
initiatives in freezing discretionary non-security spending, 
creating a bipartisan commission to come back to us later this 
year with ideas to reduce expenditures, to put everything on 
the table, the revenues, entitlement programs. Just the 
combination of the two, that is a very good start.
    But rather than cut the services that citizens count on, I 
think it makes a lot more sense to cut out the waste and the 
services that we simply don't need. You have spoken to this, 
but I am going to ask you to come back to it again, if you 
will. How can energy efficiency work to stabilize and reduce 
operating expenses for the State? How can it help to ease 
pressure on the energy bottom line? You mentioned this. I just 
want you to come back and touch on it again.
    Governor Markell. Yes. Well, first of all, it is a great 
opportunity for the State as a State Government. It is also a 
great opportunity for individuals. You talked about the 
difficult challenges facing the State Government in terms of 
our budget. Obviously, a huge number of people through the 
State and the country are facing the same things with their own 
budgets.
    And so, for example, the weatherization programs that have 
existed for a while but have really received a boost through 
the stimulus program help a lot of people. Less energy escapes. 
It requires less hot air during the one season, less cool air 
during the other season escapes. It is good for our 
environment. It is good for our health. It is good for people's 
pocketbooks. So those weatherization programs make a big 
difference.
    But similarly, within State Government, it is everything 
from smarter disposal of waste, because to the extent that we 
are recycling rather than paying significant tipping fees for 
the disposal of our garbage, I mean, it just makes sense. The 
great thing about all of this area is these are win-win-wins. 
They are wins in the sense of when you dispose less and recycle 
more, it is good for our environment. It is good for our 
health. It is good for our pocketbook. But it is also good for 
creating jobs. So we are going to work hard to reduce how much 
we dispose of and how much we recycle.
    We are, in this building and in other State buildings, 
capitalizing on a very creative program through the Sustainable 
Energy Utility (SEU) where we are taking advantage of financing 
that is not taxpayer financing. This is not against the general 
obligation. It is not a general obligation debt of the State. 
But the SEU is essentially going out to borrow. The money that 
is raised through the borrowing is going to be used to make 
buildings like this one much more energy efficient. We are 
going to be paying less for energy and that will be the source 
of the repayment of the bonds. So that is another example.
    And so there are just lots of things like that, but we do 
think it is just incredibly important for us to get beyond the 
talk and the paperwork to real action.
    Senator Carper. Thank you. I am going to ask one more 
question. I think you need to be out the door in, I think, 
about 5 minutes, so we will be mindful of that, but just one 
more question, if I could. As our State and our Nation 
transition to a new economy, new ways of doing things, it is 
going to take new talents and skills for, as you said, for 
Delaware students and Delaware workers. The technology 
management of even 10 years ago just doesn't cut it when it 
comes to meeting those new demands. I think about all the folks 
that we represent who worked at the Boxwood Road plant, the 
Newark assembly plant for Chrysler, who have years of technical 
and mechanical expertise and are, as we know, waiting to get 
back to work.
    How do we bring these workers into the fold and better 
ensure that they have the skills to thrive in a new economy, 
and what can we do to prepare our State and our Nation's 
students to make sure that they are better able to take 
advantage of the opportunities a green economy will bring?
    Governor Markell. Well, this is a great question and it is 
an important question and it really speaks to the need to think 
holistically about these opportunities, because it all sounds 
good, but if you don't have the people to do the work, then it 
is really for naught.
    And the other great thing about it is these projects, these 
jobs cannot be outsourced. I mean, we need people on the ground 
here who are doing all this work.
    So we have already begun to form partnerships with our 
labor community, also with Delaware Tech, and so Delaware Tech 
has launched a series of courses, certificate programs in 
everything from energy auditing to building management to 
weatherization. They are working closely with the State. They 
are working closely with private industry to ensure that the 
programs that they are developing mirror the kinds of job 
opportunities that are available in the real marketplace.
    So we have got to be mindful also of the timing. So, for 
example, we need people to do the energy auditing and the 
energy efficiency work today while at the same time we are 
getting people or preparing people to begin the work that will 
be required at places like Fisker.
    We have got a very interesting specific example that I want 
to mention. So right after I came into office, Alan Levin and I 
awarded a grant to Autoport, just down by the Port of 
Wilmington. The purpose of that grant, it was a training grant 
to have a few of their people learn how to do the retrofits to 
electric vehicles. So they did. They sent their folks, I think 
it was to California to get trained. They then came back and 
they started producing some of these--retrofitting some 
vehicles for electric usage. They actually had some paying 
customers.
    Senator Carper. I got to drive one of those.
    Governor Markell. Yes.
    Senator Carper. That was so much fun.
    Governor Markell. It is fun. I think they are one of five 
finalists to produce electric vehicles for the Postal Service. 
And so I don't know if they are going to get that contract or 
not. We are obviously very hopeful that they are. But that 
would not have been possible without their workers being 
trained.
    And so we just think all of these things fit together, and 
it is certainly our view--when you talk to companies, as you 
know from your experience as governor and since then, when you 
talk to companies about why they would locate in Delaware 
versus some other place, there are lots of factors that they 
consider, many of which work to our advantage--our location, 
our transportation infrastructure, the port, the responsiveness 
of the government, and certainly in the case of Fisker that was 
big because we were so responsive to them.
    But the quality of the workforce is very high on the list. 
Nobody wants to be here if there is not a great workforce, and 
we are fortunate. We do have a great workforce, in part because 
we have great schools. And so all of these things have to 
continue to fit together. So that is my perspective.
    Senator Carper. Well, great. I think you are the single 
best witness I have ever had for a field hearing in Delaware.
    [Laughter.]
    Governor Markell. Your second-best witness is about to come 
up on the stage. I mean, your new first-best is about to come 
up on the stage.
    Senator Carper. Well, he is going to have to work hard to 
top you. But I just want to say, I like the quote I once heard 
from a pastor of mine who used to say, people would rather see 
a sermon than hear one, and in what Delaware is doing under 
your leadership, we are actually getting to see the sermon 
rather than just to hear about it and we applaud you for that 
and want to be supportive of that. Thank you very much for 
sharing some of that with us this morning.
    Governor Markell. Thank you.
    Senator Carper. And thanks for riding Amtrak, too. I 
understand you are going to catch a train here in just a 
minute.
    [Pause.]
    Senator Carper. Well, I was kidding our County Executive, 
Chris Coons, saying that the governor, who has now left the 
building, what a low bar he set as our witness and how easy it 
will be to exceed what the governor is proposing to do and 
leaving the State to do, but actually, I am kidding. It is 
actually exciting and inspiring to see what the governor is 
proposing in his new Executive Order and the commitment that he 
brings to actually implementing the words that are in that 
Executive Order and sharing with us at the Federal level what 
we can do, what we have done that is being helpful and 
supportive of those policies, but what we can do to be even 
more supportive.
    Our first witness today is our County Executive, Chris 
Coons. He is a former member of the Governor's State Energy 
Task Force, which worked to address the State's short- and 
long-term energy goals and to bring clean energy technologies 
and businesses to Delaware, along with a whole lot of other 
accomplishments. He has worked tirelessly, and I think 
successfully, with partners in the Federal Government to bring 
energy efficiency grants and green energy jobs to Delaware and 
I thank him for being here today.
    He and I both share a passion for creating a nurturing 
environment for job creation and job preservation. In a day and 
age when we have shed in the last year so many jobs in this 
country, really around the world, we need to do our very best 
in creating that kind of nurturing environment. I think we are 
doing that in Delaware and we thank you for your leadership in 
making that happen.
    A couple of years ago, when I was, I think, in my first 
term as a Senator, I had the good fortune--I had heard about 
the remarkable work that was taking place in the School 
District of Seaford and how Seaford was serving as a model to 
other school districts, really to other States, to be able to 
conserve energy. And I was struck, but I learned that they 
have--I think Seaford has about a half-a-dozen school 
buildings, between your elementary schools and middle schools 
and high schools, and Seaford is one of the school districts 
where they have not just talked about extending the school 
year, but actually have done so in some cases.
    Among the things that Seaford has done, and I have learned 
this in my visit there, that they have been able through all 
the conservation investments they have made in their schools, 
been able to provide air conditioned schools that can stay open 
during the summer and everybody can--students can learn, 
teachers can teach in an environment that is conducive to that. 
And by making all the savings in energy consumption in other 
ways, they have been able to not really use much more energy. 
It is a pretty remarkable accomplishment. I said, boy, they 
ought to be recognized nationally, and as it turns out, they 
have been.
    One of the people who has been just a key part of all this 
is our witness here with our County Executive, Roy Whitaker, 
who is the Chief of Buildings and Grounds for the Seaford 
School District. I bet a lot of school districts around the 
country would like to get their hands on him, but we don't want 
to let you go, so thanks for being here and staying here. He 
has been with the school district since 1996 and has held a 
long-time interest, as we all do, in renewable energy.
    In fact, he designed and fabricated a successful solar 
domestic water heater during the late 1970s energy shortage. I 
would just add to that, when I was a graduate student in the 
MBA program at Delaware, we had an operations research course 
that I took and one of our responsibilities was to design a 
manufacturing operation for some kind of product. And in 1974, 
my project was a plant that created solar energy panels. So you 
and I are really in the same time frame, working in the same 
venues. It is kind of interesting that we have intersected 
again here.
    During his 14 years' tenure in Seaford, Mr. Whitaker has 
been instrumental in Seaford becoming only the third school 
district in the Nation to receive the ENERGYSTAR Leader's Award 
for reduction of energy consumption, and we salute you for 
that. We applaud you for that. We are delighted to hear your 
testimony as to how we can learn, at the Federal level, and be 
better informed as we create national policy and fund those 
policies. We look forward to what we are going to learn from 
both of you today and from Mayor Baker when he joins us.
    County Executive Coons, thank you, sir.

   TESTIMONY OF CHRIS COONS,\1\ COUNTY EXECUTIVE, NEW CASTLE 
                        COUNTY, DELAWARE

    Mr. Coons. Thank you, Senator, and thank you for an 
opportunity to testify at this Subcommittee field hearing on 
energy efficiency actions by State and local governments. I am 
grateful for your long and effective leadership on this issue, 
going back to your time as a governor and now as a Senator, and 
I am also grateful for the leadership we have seen from 
Governor Markell, as we heard in his testimony earlier today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Coons appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    The conservation of energy and our natural resources is an 
important issue, not just for New Castle County and the State 
of Delaware, but for our Nation and world. As a County 
Executive who represents more than half-a-million people, every 
year, I have to produce a balanced budget, provide needed 
services, and serve as a wise steward of public funds. In tough 
economic times, people across the country are tightening their 
belts and making their dollars go further, and my government is 
called on to do the same.
    Out of last year's operating budget of about $228 million, 
we spend about $10.4 million in total on energy of all kinds. 
That is from street lights and electricity----
    Senator Carper. Would you say those numbers again, please?
    Mr. Coons. Out of a $228 million operating budget, we spend 
about $10.4 million on energy, all in. That is gasoline and 
diesel for our 1,600 vehicles, that is operating energy for 
roughly 50 buildings and facilities, and that is the street 
lights that we are responsible for in dozens of communities in 
the unincorporated county. So it is one of our largest and most 
unpredictable operating expenses for energy, both for fuel and 
for electricity, and one where we have made real, I think, 
strong and consistent efforts to be fiscally responsible.
    As we know, about 40 percent of the energy consumed in our 
country goes into the operation, heating, and maintenance of 
buildings, and so conserving energy through the retrofit of our 
county buildings and by using more renewable sources is not 
only environmentally responsible, it is fiscally responsible 
and makes great economic sense in these difficult times.
    As a society, all of us are called to be good stewards of 
natural resources, but as a public servant, I think energy 
efficiency also makes me a good steward of county dollars, 
helps create jobs, and makes the world a better place for our 
children. So New Castle County and my administration, in 
particular, is committed to fostering economic development, 
creating green jobs locally, and enhancing environmental 
protections.
    Our county was an early adopter of local government 
sustainability practices, starting with waste reduction, 
increased recycling, and by empowering my staff to take on 
leadership in environmental initiatives. One of the first 
Executive Orders I issued was to mandate recycling in county 
buildings, something about which I know you are passionate. And 
in 2007, we became the first local government in Delaware to 
join the International Council for Local Environmental 
Initiatives, making a commitment to conduct a comprehensive 
inventory of our greenhouse gas emissions and working towards a 
holistic strategy to reduce those emissions.
    The first and strongest prong of our efforts in that 
strategy is to tackle one of the county's greatest energy hogs, 
our buildings. As a pilot, we worked first on the City-County 
Building, the Louis L. Redding City-County Building, which is 
just immediately adjacent to this Carvel State Office Building, 
a 36-year-old building which was significantly inefficient, 
both because of when it was built and because of its operating 
history and the significant amount of deferred maintenance.
    The City-County Building is a 10-story, 192,000-square-foot 
office building, and the energy conservation measures that we 
implemented were done in partnership with Ameresco, an energy 
services company. We have a 15-year agreement with Ameresco, 
which was made possible by a facilitating bill in State law 
that allowed a county procurement code to finance capital 
investments in energy efficiency retrofits off the future 
savings. The sorts of things that we entered into this 
partnership with Ameresco to deliver are upgraded lighting 
controls, new energy management systems, a replaced boiler, 
chiller, and cooling tower, variable volume hot and chilled 
water pumping systems, premium efficiency motors, water and gas 
conservation measures, and, of course, ENERGYSTAR 
certification.
    Our annual operating savings projected through this 
investment are about $355,000 a year. That is the equivalent in 
terms of reduced emissions, these energy savings, of taking 
1,150 tons of carbon dioxide per year out of the environment 
and reducing the energy demand that New Castle County places on 
our local grid of about 1,890 kilowatts per year.
    Another important point is that this roughly $3.3 million 
capital project is something that, because of our own county's 
fiscal situation, we would not otherwise have been able to do. 
So we were faced with a common problem in local government, an 
aging building with aging critical infrastructure that we 
lacked the bonding capacity at the time to invest in.
    The energy savings contracting system that we entered into 
with Ameresco made it possible to achieve three goals: To 
upgrade our systems so that, frankly, they operated better; to 
achieve energy savings; and to achieve over the long-term cost 
savings.
    In 2007, New Castle County completed the construction of 
our largest and newest and in some ways most expensive 
building, the Corporal Paul J. Sweeney Public Safety Building. 
There is a small graphic of the Sweeney Building to my left. It 
is on Route 13 in Minquadale, just south of the City of 
Wilmington. This roughly $48 million building is a state-of-
the-art public safety building that integrates police, 
paramedics, and our 911 center, as well as several other public 
safety disciplines, under one roof. It received a Silver rating 
from the U.S. Green Building Council under its Leadership in 
Energy and Environmental Design (LEED), Green Building Rating 
System. And that took a great amount of work and design and 
investment by New Castle County.
    There are many features of the building described in very 
small detail on the graphic that help it achieve that LEED 
Silver certification. Principal among them, a geothermal pump 
system consisting of 30 pumps that are buried underneath our 
parking lot that have 400-foot-long pipes that go up and down 
at various times using an alcohol-based liquid to either 
capture heat, subsurface geothermal heat during the winter, or 
relieve some of the heat from the building during the summer.
    It also has a lot of features--electrical sensors for 
turning off lights in rooms that are unoccupied, using 
skylights to maximize natural light within the building, 
reusing gray roof water, rainwater, or gray water for all the 
bathrooms in the facility, and many other energy efficient 
aspects to its heating, air conditioning, and ventilation 
systems.
    We also reused and recycled the site of the former county 
police headquarters and separated out and recycled most of 
those building materials, thus getting a Silver certification.
    Due to the vital public safety activities that are housed 
in that building, it is not uncommon for a building such as 
this to be a very large consumer of energy. But through the use 
of these green technologies and the disciplines that the LEED 
Silver certification forced us to go through, we reduced both 
our environmental impact and the annual operating cost of the 
building.
    Last, after these initial successes with the public safety 
building and the city-county building, we decided when the 
stimulus was enacted a year ago to jump with both feet into 
doing a countywide energy efficiency program. We again used 
Ameresco to do an energy performance audit of all of our 
facilities and to establish a baseline for setting and 
measuring progress over time. The purpose of that audit was to 
prioritize and rank our different infrastructure investments to 
find the best return on investment for reducing energy demand. 
We found 158 different conservation measures across more than 
20 county facilities and nearly half-a-million square feet of 
building space, which includes two rooftop solar installations.
    This will allow us to undertake a comprehensive countywide 
partnership with subcontractors in specific trades and local 
materials here in New Castle County. We have also partnered 
with DelAccess, which is an organization that helps in terms of 
outreach for small, minority, and women-owned businesses. We 
believe this project will ultimately create 156 green local 
jobs, and we are going to invest $3.8 million in Federal 
stimulus funds which we are leveraging with $4 million in 
county bond indebtedness, which we will either finance through 
our traditional AAA general obligation county bonds or through 
a zero percent interest Renewable Energy Tax Credit Bond 
program that is currently being offered by the Department of 
Treasury.
    We have a whole range of improvements that are being 
planned through this initiative, which will include lighting 
retrofits and new controls, energy management systems, premium 
efficiency motors, heat pumps, boilers, cooling towers, a whole 
range of different improvements that across all of New Castle 
County should allow us to reduce CO/2/ emissions by 11.8 
million pounds per year, equivalent to that amount of offset. 
That is the equivalent of taking 1,000 cars off the road or the 
power to heat 240 homes across Delaware.
    We are also going to be working with Ameresco to educate 
the community about the benefits of renewable energy and energy 
efficiency projects, hoping to set an example, not just for our 
citizens but also for our private sector and general business 
community.
    Our savings should be about $450,000 a year in energy for 
New Castle County through this stimulus-funded countywide 
initiative, and in all, these initiatives should pay for 
themselves in 20 years or less. That was the benchmark we set. 
Some of them pay for themselves in just 3 or 4 years. Some of 
them take up to 20 years.
    There is also intangible benefits to these investments--
health benefits, for example, for our workers, by improving air 
flow, increasing natural lighting, or decreasing volatile 
organic compounds (VOCs), in their work spaces.
    I, if you don't mind, Senator, will take this opportunity 
to make a few comments, as well, about how this experience was 
positive and more difficult for us. I strongly support the 
Obama Administration's initiative to invest in our Nation's 
energy infrastructure through the stimulus and we recognize the 
daunting task of rapidly ramping up such a large investment in 
energy infrastructure. But we also saw some real challenges for 
us.
    Understandably, when you are trying to disburse this large 
an amount of taxpayer funds, you have to take strong efforts to 
maintain transparency and to ensure that they are appropriately 
accounted for. But in respect to the disbursement of funds from 
the Department of Energy (DOE) to New Castle County, they did 
not have sufficient staff, either career personnel, or 
contractors, to handle some of these initiatives. Our initial 
application for EECBG was filed in July 2009. The release of 
funds didn't occur until December 2009, and through that 6-
month review, our application went through three different DOE 
staff and a contractor, each of which requested different 
information and we had different hurdles to get through. That 
has produced some significant frustration in our local 
contractor community just because of the delay.
    Frankly, I think in New Castle County, we also have to own 
some of that delay due to our own internal purchasing and 
procurement process. Again, when using public funds, we 
recognize the importance of transparency. But we were somewhat 
frustrated by the timing that it has taken to get this money on 
the street.
    A second comment, if I could. The Energy Efficiency and 
Conservation Block Grant (EECBG) program, allocates amounts to 
municipalities across this State and the country, in some cases 
in very small amounts. Arden, Odessa, and Townsend, for 
example, got $20,000. Newport and Bellefonte, $30,000. Delaware 
City, $35,000. So to try and help make that more efficient, 
make it go farther, we invited Ameresco to work with New Castle 
County and those municipalities to pull them together and allow 
them--which State code allows--to piggyback on New Castle 
County's contract with Ameresco, so that instead of having 
these small municipalities spend that money on an RFP process 
or going through their own procurement process, they could 
piggyback on the work that we had already done and partner with 
us, hopefully, or with the State's Sustainable Energy Utility, 
to achieve rapid investments that would actually see real 
results rather than just investing in a paper process.
    At the end of the day, our partnership with Ameresco, our 
work in partnership with the city and with the State, with 
Honeywell and with the SEU have been very positive, and I would 
like to applaud the Administration and your leadership, 
Senator, in supporting energy efficiency investments at the 
State and local level. It is my real hope that we will learn 
from the experiences of this year and there will continue to be 
investments through EECBG, because it is my belief that it 
ultimately produces high-quality sustainable green jobs, a 
reduced operating cost for State and local governments, and 
significant benefits for our community, not just in 
environmental ways but in economic ways, as well.
    Looking forward, some areas where we are hoping to continue 
to work together is, for example, in plug-in hybrid vehicles. 
It is my real hope that the Fisker automotive plant, which you 
played a role in helping get reopened, will be producing plug-
in hybrid vehicles, and I think State and local fleets are a 
perfect place for them to begin. We have 1,600 vehicles in the 
New Castle County fleet and I am hopeful that some of them will 
be hybrids that are plug-in hybrids as that plant begins to 
ramp up.
    Second, local governments can encourage or even mandate 
energy efficiency through the adoption of building codes that 
encourage conservation. New Castle County has adopted the 2006 
International Energy Conservation Code, which sets standards 
for building efficiency and operation. And working in 
partnership with the U.S. Department of Energy's ENERGYSTAR 
program, we have made real progress in measuring and delivering 
energy efficiency, not just in our buildings, but in the 
private sector here across New Castle County.
    We have a number of buildings, as I mentioned, that have 
applied for and received LEED certification--our own Sweeney 
Public Safety Building, also showing some real leadership, I 
think, the State's Blue Ball Barn, which got a Gold 
certification, recently the Girl Scouts had a LEED Platinum 
certified building out in Hockessin, but also our private 
sector, P&C Bank, AstraZeneca, the American Honda Financing 
Center have all achieved LEED Gold certification. It is our 
hope, working in partnership with the State and with them, to 
begin a Green Buildings Award Program annually that would 
recognize private sector partners, government partners who have 
made these investments.
    There is a lot more that we can be doing together. I thank 
you for your leadership in holding this hearing today. I look 
forward to the comments of both Roy Whitaker from the Seaford 
School District and the Mayor when he joins us. We can learn 
from each other, and working together, we can invest in making 
this not just a greener, more livable, more sustainable 
community, but in putting people back to work and making ours a 
more financially solvent and responsible community.
    Thank you, Senator, for this chance to testify.
    Senator Carper. You are quite welcome. We thank you very 
much, not just for being here, but for the great leadership 
that you and the county are providing for a half-million of us 
who are privileged to live there and be your constituents. 
Thank you for all that.
    I have a couple of questions I would like to ask, but we 
are going to turn to Mr. Whitaker next and thank him again for 
joining us. We welcome your testimony. Thanks so much.

 TESTIMONY OF ROY WHITAKER,\1\ CHIEF OF BUILDINGS AND GROUNDS, 
               SEAFORD SCHOOL DISTRICT, DELAWARE

    Mr. Whitaker. Good morning and thank you for inviting me to 
the hearing. There are three primary points of interest I would 
like to make to the attendees. The three points will describe 
our school district and our successes, the free and low-cost 
efforts resulting in huge financial savings, and how other 
school districts, government agencies, or businesses can 
duplicate the efforts.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Whitaker appears in the Appendix 
on page 44.
---------------------------------------------------------------------------
    The Seaford School District in Seaford, Delaware, is a 
national average school district with six schools. We have used 
the free web-based EPA ENERGYSTAR program, and particularly the 
Portfolio Manager software, to successfully benchmark all of 
our schools and manage them for superior energy efficiency, 
resulting in current annual savings of $640,000 per year 
compared to national average schools. Another benefit includes 
a several-million-pound reduction in air pollution.
    In summary, the Seaford School District's introduction to 
the ENERGYSTAR program and ensuing partnership has enabled us 
to fast track significant energy and pollution reduction 
measures that are having a real and immediate impact on the 
planet and budget. The quality ENERGYSTAR training program and 
resources showed us how and where to start with benchmarking 
and how to take our Portfolio Manager numbers into an effective 
action plan that made an immediate impact.
    I note that the six schools have an average age of 61 years 
and our current average ENERGYSTAR rating for all six buildings 
is 96 out of 100, with the 1928 school building dragging us 
down just a few points. We are very proud to manage our schools 
with some of the best energy performance in the country, even 
when compared to the newest schools. The Seaford High School 
right now is rated at 38,000 BTUs per square foot per year, 
which is in the order of a brand new school with the best LEED 
design.
    There are a multitude of free and low-cost items that can 
be implemented to initiate a path of significant energy savings 
like ours. There are also many items with quick payback that 
would be a part of any savings program.
    One important aspect of any program would be to sweat the 
small details. The small details are what make a school 
environment healthy and effective for the students and staff. I 
note that we have made mistakes along the way and have learned 
and improved because of them. I would suggest that anyone 
interested in the steps we took please review the PowerPoint 
presentation on the Seaford School District website. It is 
available off of the Buildings and Grounds link, or contact us.
    Although the list is long, a few of the details that you 
will find on the website presentation will include creating a 
formal energy policy, benchmarking building performance, 
managing the on-off times, and tuning the equipment. Also 
important is sealing up the building envelope, avoiding 
wasteful practices that consume significant energy, modifying 
or upgrading existing lighting, storm windows, which at one 
school saved 24 percent right off the bat, and specifying 
different or better equipment when repairing or building new 
facilities.
    I also believe that some of the engineering practices in 
even the past 10 years are not suited for the facilities of 
today and every detail needs to be scrutinized. At one of our 
schools, we are considering upgrading the main electrical 
transformers, which are only 12 years old. The replacement will 
have 2-year payback with a savings of over $1 million over the 
30- to 40-year lifespan.
    If suitable funding can be found, there are countless 
similar investment opportunities that will produce significant 
cost savings over the next few decades. To summarize this 
point, the goal is to maintain an excellent indoor environment 
while providing the taxpayer with substantial energy savings.
    Although these tough economic times throw up roadblocks, it 
will take interested and dedicated people to plan, coordinate, 
and control the outlined steps to achieve significant and 
consistent energy savings. It will also take the financial 
partners to fund the projects that have significant payback for 
many years into the future.
    To take this last point full circle, we just recently noted 
that the ENERGYSTAR rating was starting to drop at one of our 
buildings. The Seaford School District is one of the poorer 
school districts in the State and the phrase ``shoestring 
budget'' applies to all of our buildings and grounds 
operations. My two technicians and I are responsible for 
everything from maintaining the athletic fields to what has 
unfortunately been too much of lately, snow removal. Although 
everything seemed to be running very well at the school, the 
technicians----
    Senator Carper. Let me just interrupt you. Did you have a 
roof of one of your elementary schools collapse, or partially 
collapse?
    Mr. Whitaker. Yes. That was our West Seaford Elementary 
School. Ironically, we were watching the rainstorm come for 
almost 2 weeks. We saw that on AccuWeather on the long-range 
forecast. I did even note to the Superintendent that we had a 
blizzard coming, which we would deal with, and the rain that 
came on that Tuesday into Wednesday was a problem. Monday of 
that week, we actually took the ceiling tiles out of most of 
our schools in the corridors and the classrooms, cranked the 
heat up to 80 degrees in an effort to actually get some of the 
snow melted off the roof. Our staff was also up on the roofs 
Monday morning shoveling the drains, the roof drains, to make 
sure as much water as we could, we could get off of them. 
Unfortunately, that roof is ballasted. It has large rocks all 
over the top of the roof. It is not very easy to walk on and we 
didn't deem it safe or wise to try to get up there and shovel 
it.
    And about 4 a.m. on Wednesday morning, the nominal 100,000 
pounds of extra weight of snow and rain did bring that roof to 
a very substantial and catastrophic collapse. It took out that 
area and the adjacent kitchen area and the perimeter. It was 
basically a gym/auditorium/cafeteria combination, multi-purpose 
room, and the entire second story, the masonry there was many 
tons and that all fell on the adjacent rooms, also.
    So that has been cleaned up now. They have shored up the 
adjacent areas. We did have the serving line for the children 
back into the gym down at the other end of the building and 
that was up and operational for the return of school when we 
finally got the streets cleared in Seaford.
    Senator Carper. OK. What a challenge, on top of everything 
else. Thank you. Please proceed.
    Mr. Whitaker. You are welcome. Although everything seemed 
to be running at the school, the technicians discovered a 
glitch in the controls program, probably very similar to what 
we have in this building here, Johnson Controls. We use the 
Metasys, and it was keeping the main circulation pump running 
24 hours a day, 7 days a week. Where the glitch came from, we 
never know, but as we are all very well aware, computers can 
have a glitch from time to time and you will never understand 
how or why it broke, but they do.
    This single error was wasting electricity and a significant 
amount of heat. If we are not looking for these types of 
things, meaningful energy savings will not be maintained over 
time. In conjunction with ongoing upgrades to our ENERGYSTAR 
Portfolio Manager data in tracking the effectiveness of our 
newer mechanical improvements and engineering test 
applications, which we do from time to time, it is also very 
reassuring to observe the documented energy savings by using 
that free service.
    I thank everyone for making it possible to share some of 
our successes with our energy program and invite anyone to tour 
our facilities or contact me with questions.
    Senator Carper. Thanks for a great story.
    Each of you have talked a bit about the partnerships that 
you have entered into and the ability to use scarce county 
resources or school district resources in order to get a much 
bigger bang for your buck and to drive down your energy costs. 
Would you just come back and just talk with us a little bit. 
Our County Executive talked a good deal. He mentioned the firm 
Ameresco and a couple of others, as well, as private sector 
partners and all. But just talk with us about how you have 
explored the possibilities for partnerships, how you entered 
into these, how you feel about them, any points that you would 
suggest to other counties or States keep in mind as they look 
for those partnerships, as well.
    One of the partners obviously is the Federal Government. 
You have referred to how we sought to be a good partner through 
some of the provisions of the stimulus package, but feel free 
to talk about that, as well.
    Mr. Coons. We have benefited enormously from several 
different partnerships, as you heard from Mr. Whitaker. The 
Seaford District benefited a lot from what the Department of 
Energy put up in their ENERGYSTAR program, their online 
resources. We also relied on that and learned a great deal from 
it.
    Previous to my service in the county, my work in the 
private sector with a local company, we also reached out to the 
Department of Energy and found that their resources, both in 
person and online, made an enormous difference in getting on 
top of our energy costs, the Portfolio Manager software, the 
ENERGYSTAR building ratings were very helpful.
    The National Association of Counties, which I am also 
active with, has had a Green Government initiative that had a 
very energetic staff person, Kelly Zonderwick [ph.], who 
convened facilities managers and purchasing people to talk 
about green purchasing, energy initiatives, investments in 
facilities, and that has been quite a helpful learning 
opportunity for us.
    We also, frankly, had to invest in upgrading the caliber 
and training of our staff. We have a new person, Barry Nane, 
who is running all of our facilities and is, himself, a master 
electrician and somebody who I am going to refer to Mr. 
Whitaker for some partnership and ongoing learning.
    Ameresco, we entered into a long-term work relationship 
with through a RFP process. Honeywell is also a great company 
that we have worked with in the past. Honeywell has had and 
continues to have some of the operating responsibilities for 
the City-County Building, a building that was jointly built, 
owned, and still operated by the city and county governments, 
and Honeywell has played a central role in trying to manage it 
more efficiently, and I know the Mayor, when he comes, will 
talk about Honeywell's role in helping the city score and 
manage their investments.
    We have also done a fair amount of outreach to the local 
contractor community. There are local businesses, PTM 
Manufacturing, for example, is one that just opened in the 
Newark area that is making products that are energy efficient. 
These are insulated HVAC ductwork. Where we are trying to 
create business opportunities for them and jobs in our county, 
by introducing them back, by getting them familiar with 
Honeywell and Ameresco as companies that have billions of 
dollars in contracting opportunities at the State and county 
level regionally.
    We also have, in the University of Delaware, a great 
resource for all of us. They are a national leader in solar 
energy, both in research and in implementation, and we have got 
some strong local companies that have innovative installation 
and servicing systems. I was just talking to Scott Johnson of 
SolarDock earlier today about their rooftop solar mounting 
systems. So I think as long as we continue to work together, 
with your leadership, we will be able to learn from each other 
and do a better job at energy efficient installations.
    Senator Carper. Thank you. And, Mr. Whitaker, do you want 
to talk a little bit about the partnerships that Seaford has 
had with the State or with the private sector, the Federal 
Government, and with a mind on what could we do better. 
Particularly at the Federal level, what can we do better to 
enable you to do more.
    Mr. Whitaker. One of the most interesting things from the 
chart you showed earlier was cogeneration or combined heat and 
power. The Seaford School District is very actively looking at 
a possible combined heat and power project.
    Senator Carper. Who would the project be with?
    Mr. Whitaker. With multiple players. The City of Seaford 
actually has their own power company, one of the nine in 
Delaware that are part of DMEC. So the municipal company has 
rates that are maybe not as competitive with some other areas 
and our costs are very high for the electric for the taxpayers. 
In conjunction with that, the electricity use profile of a high 
school, middle school, elementary school is completely opposite 
of the average home. So when the folks at home are going to 
work, our schools are just starting to turn and use 
electricity. As the school shuts down in the afternoon, 
everyone is now starting to come home. The air conditioning 
goes on. People are cooking dinner and electric usage goes up. 
So our load profile matches very good with the average 
residence.
    The City of Seaford has six megawatts of generating 
capacity that are called antique design, old diesel 
recipocating engines receps, that are very, probably, 
inefficient and also high-pollution factors. They have shut 
those down due to the pollution concerns. But those generators, 
one of the things they also do is produce excess heat. If we 
had excess heat in our school buildings, in the wintertime, 
instead of maybe keeping a classroom at 70 degree, maybe we 
could keep it at 72, 73, if it is waste heat.
    So we are looking to actually form a partnership with an 
investment company maybe to own the turbines, maybe even the 
City of Seaford could own them or run them through a third 
party. The school district could do a power purchase agreement. 
We could buy the electricity off of those turbines at a 
discount.
    One of the biggest things with electrical consumption was 
this electricity had to be made at a power plant somewhere and 
half of the power that these lights are burning right now is 
lost just getting here. So the distribution loss, the pollution 
due to that is very problematic and that is what makes 
cogeneration so good.
    So we have a very good fit there, very quick payback, and 
we could take the waste heat and put it into the classroom or 
run air conditioning off the waste heat. So it is a very large 
win-win. Efficiencies are very large. Cogeneration saves 
approximately 25 to 30 percent. It is more efficient than 
having it shipped in over the wires.
    So we are trying to put a large amalgamation together now. 
This is rather difficult for a school district with six 
schools, myself responsible for so many areas. So if there is 
any kind of a pilot project, we are looking for it. I know the 
Federal Government had some combined heat and power (CHP) cogen 
projects that were in the stimulus package. We have not 
actually figured out a way to get access to any of those funds, 
but with some proper hard-core engineering, there is a 
tremendous win-win that could be put in place at the Seaford 
District and could be a model for the State, maybe for the 
country, and would work very effectively, saving the taxpayer 
money, reducing pollution, and being a good fit with the grid 
overall.
    Senator Carper. I am going to ask, when the hearing is 
over, if you would just spend a few minutes with members of my 
staff who are right behind me and talk with them about how we 
can help you better access some of those monies in the stimulus 
package. That would be good.
    Mr. Whitaker. Thank you.
    Senator Carper. I know there are national organizations in 
which school districts participate and superintendents of 
school districts participate. I am not sure what opportunities 
there are for someone who has learned so much, done so much in 
the school district, provided great leadership, for you to 
infuse your experience on to your counterparts in other 
schools, other school districts across the State and across 
America.
    But with that in mind, let me just ask each of you, what 
lessons could you pass on, or what lessons are you passing on 
to other government leaders or to other school leaders to 
motivate them on how to follow up, really, on your successes?
    Mr. Coons. More than anything, what I tried to convey, in 
partnership with several members of the County Council, one who 
has now gone on to serve in Governor Markell's domestic team--
--
    Senator Carper. I saw her just this morning.
    Mr. Coons. You may have seen her. Stephanie McClellan now 
is a policy advisor to the governor and took a real lead role 
in County Council on the building codes and energy, also, in 
partnership with other county executives. It is to just try and 
convey the message that investments in energy efficiency are 
the most productive investments we can make. The most efficient 
energy we generate is the energy we save, that we don't ever 
have to generate.
    And so, frankly, it is both good environmental stewardship, 
good economic stewardship, and good politics to invest in 
energy efficiency. So if there is one simple message I have 
tried to convey through organizations of county-elected 
officials, it is that.
    Senator Carper. We have been joined by Mayor Jim Baker. I 
am going to ask you, Mayor, if you will, just come on up and 
join Mr. Whitaker, from the Seaford School District, where they 
have done great things in energy conservation. Welcome. We are 
delighted that you are here.
    I am going to ask Mr. Whitaker to respond to one more 
question. He has given inspiring testimony as to what is being 
done in the Seaford School District to reduce energy 
consumption, to save money, and to improve the environment for 
employees and for constituents and for students and teachers.
    What lessons can you pass on to other folks, other school 
districts across Delaware and across America? How do you go 
about doing that?
    Mr. Whitaker. The message has gotten out. Due to our 
participation with the ENERGYSTAR program, we were also the 
2007 ENERGYSTAR partner of the year. I have spoken both in 
Washington, DC several times and throughout the State. As a 
matter of fact, next Saturday, I will be at the Blue Ball Barn 
giving a brief presentation, much more detailed than what I am 
doing here.
    The third point, though, in my presentation was that it 
really takes the oversight and dedication of people who are 
interested in the topic to bring it to fruit. I don't believe 
myself showing up on anyone's doorstep would be effective. They 
really have to want it from within.
    So it was reassuring last December, I was in Washington, DC 
for the EPA Tools for Schools Symposium on the indoor air 
quality. We have practiced the EPA Tools for Schools for about 
8 years now and I spoke on another topic on air quality there 
just briefly, and one of the fellows came up to me afterwards, 
``Oh, I am from Pennsylvania, a school district there. We 
actually went to your website. We copied your energy policy and 
we are doing the things that you are doing.'' And they were 
having great success with it.
    So the sharp young people, or sharp old people, were 
picking up on those things. They are going to have success.
    Senator Carper. Thank you.
    We are going to wrap up in about 10 minutes or so. I want 
to spend most of that time just hearing from our Mayor. I 
enjoyed so much over the years as governor, now as a Senator, 
having a chance to work with the Mayor, to work with the City 
of Wilmington. We appreciate his testimony before a field 
hearing in Philadelphia a year or so ago on the census, as we 
are gearing up for the Decennial, and we thank you for that 
input.
    We just welcome your comments here today. The County 
Executive has talked a little bit about the challenges that you 
faced in the City-County Building and how to take a very old 
building and try to turn a sow's ear into a silk purse. But 
thank you for joining us and please proceed.

    TESTIMONY OF JAMES BAKER,\1\ MAYOR, CITY OF WILMINGTON, 
                            DELAWARE

    Mr. Baker. Thank you very much, Senator. It is good to be 
here. Sorry to be late, but I was talking to a bunch of kids, 
and when they start grabbing you, you can't get out.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Baker appears in the Appendix on 
page 46.
---------------------------------------------------------------------------
    But I think that we have worked with the county on the 
whole issue of the Louis Redding City/County building and how 
to make it a LEED-type building eventually, but we can't do the 
whole thing all at once so we have to do it piece by piece, 
which takes forever, but we are doing it, and we have had this 
cooperation.
    I think the other thing is joint cooperations between the 
governments from the Federal, State, and local level makes a 
lot of difference in what happens. Educating the public, I 
think, is critical. We signed onto the registry, the Climate 
Registry, some time ago. We also signed onto the U.S. 
Conference of Mayors Climate Protection Agreement where we 
pledge to beat the Kyoto Protocols target of a 7 percent 
reduction in greenhouse gas emissions, and we are trying to 
reduce ours accordingly by 20 percent instead of 7 percent by 
2020. I think it is 2020. It is hard for me to talk. I am still 
in the 1900s.
    [Laughter.]
    But anyway, we have done a lot of things and I think you 
have our statement as to the various programs that we have 
already set in place in terms of the Executive Order which I 
issued and the things we are trying to do with our fleet and 
with all our facilities, and thanks to the money from the 
stimulus package, we were able to do a major program with 
Honeywell and----
    Senator Carper. Would you talk just a little bit about 
that, please?
    Mr. Baker. Yes. It is such a great project because it has 
so many great elements to it. One, it obviously got us some 
money to be able to do that. But it will save us, like, 25 
percent of our costs at our Porter Water Filter Plant. The 
solar panels that were put up will help us do that. But we 
needed help from the State. We got the stimulus package money. 
Honeywell did certain things with us. There were actually 
people from the neighborhoods that got hired to City Council 
Member Hanifa Shabazz's program. I think there were six that 
got hired out of that program to work in this project.
    We are also going to do our new municipal complex where the 
public works and parks departments operate. We are going to do 
solar there. We are doing LEDs for all our traffic lights. We 
are changing our fleet where we are going to use hybrids. I am 
actually driving a hybrid right now because we are trying to 
make sure that we do everything possible. We have the business 
community in a roundtable talking about what they are doing, 
what we are doing, what we can do to change our building codes 
and things like that. DuPont Company has been very helpful. 
They have a lot of great products that could save us. We are 
doing about 1,000 units of weatherization through the stimulus 
package in our city, which will be great once we really get the 
thing full roll, and a lot of people are going to get employed 
and companies are going to be working.
    So I think that the obvious answer from me is that the 
cooperation and education are--and, of course, the finances to 
do a lot of this makes so much difference. We are doing a 
reverse osmosis system on our water system to clean our water 
to where we will have one of the best water systems in the 
country. We are also improving our combined sewer overflows 
(CSOs), to prevent contamination. We are using a Real Time 
Control System which only three cities in North America are 
using--I think one in Kentucky, and one in Quebec, are using 
the system, but it controls the water, not letting the bad 
stuff go back into our waterways.
    So we are going to do a major thing to make this a real 
interesting place. We can't save the world, but we are really 
going to do the best we can. I think you realize, too, the jobs 
that can be connected to the whole issue of the environment. We 
call it greening, but it is really way beyond just 
``greening.''
    I think the most important thing was that you saved, by the 
Congress acting on the stimulus package, you saved a total 
collapse, I think, economically of the country. I know all the 
arguing and the gridlock and the stuff in Washington, DC, but 
those of us that have to put up with that understand what you 
have done, which is great for the country and its future. And 
looking at education and putting the money there for our 
children is just critical.
    So I think in the long run, we are going to come out a 
stronger Nation. Yes, we are going to go through the bad times. 
I mean, our money is just as bad as New Castle County's money 
and the State's money. I mean, we have deficits we have to work 
with and all the pain of that. But if we really teach our 
children why this is so important and what they can do for 
their future, we have a greater Nation and we will be greater 
than we have ever been if we really have the faith and the 
belief.
    And all the politics of conservatism, liberalism; I don't 
care about that. It doesn't matter to me. What are the best 
ideas for the country? Because when we pass away, I would hope 
we are leaving a better Nation to our children than what we 
have right now and that we are not able to stand before God and 
they say, well, why in the world didn't you guys take care of 
your country when you had it? I wouldn't want to be in that 
position.
    So I thank you for what you have done and also this hearing 
of just discussing how we can work together. But we have done, 
I think, pretty good on----
    Senator Carper. I am struck in your testimony and also what 
we heard from our County Executive and from Mr. Whitaker of the 
value of partnerships, enabling you to leverage relatively 
scarce public resources through working with the Federal 
Government, through working with private companies. A number of 
you mentioned Honeywell, for example. It is just very 
encouraging to me to hear that.
    I would like to spend the next 4 hours, frankly, just 
having a conversation. Unfortunately, we can't. Our First Lady, 
Michelle Obama, is going to be up the road in a suburb of 
Wilmington that is Philadelphia.
    [Laughter.]
    As I am sure you know, she is leading a national effort to 
combat childhood obesity.
    Mr. Baker. This is great.
    Senator Carper. I am going to go up and be with her for 
that, so I need to----
    Mr. Baker. Well, you are luckier than we are.
    Senator Carper. I feel very lucky to have been with you and 
to have heard all the wonderful, encouraging things that you 
are doing.
    Let me just ask from each of you maybe a final take-away. 
Again, just to reiterate, for me, maybe the greatest value of 
this hearing is to hear what is working in terms of what we 
have done at the Federal level with the stimulus package, with 
the other pieces that we have done. But let me just ask for you 
again, what do you see from our perspective, the work that you 
are doing with the Federal Government, what seems to be working 
and what could we do differently or better to enable you to be 
more effective as we try to conserve energy and save money?
    Mr. Coons. On the energy efficiency side, I mean, the EECBG 
program was actually enacted several years prior to the 
stimulus. It was the stimulus that made it possible for funding 
and flowing those funds down in a way that allows 
municipalities and counties and school districts to directly 
benefit, but to partner with each other, is something I would 
encourage you to continue to do.
    Finding ways to release the funds and share learnings from 
the use of those funds more quickly is something I would 
support. And ensuring that we are spending those funds locally 
and giving us some support in disbursing them locally in a way 
that creates and sustains green jobs, training for green jobs, 
the infrastructure for green jobs locally would also be 
helpful, because, frankly, our own procurement codes sometimes 
get in the way of that. So those are three things I would 
suggest.
    Senator Carper. All right.
    Mayor, do you want to add to that, please?
    Mr. Baker. I agree with what Mr. Coons has said, but I 
think the other thing that would really help, I know there has 
been money put aside to help companies and colleges with 
research and to produce. I think we really have to save the 
small business community and also increase the small business 
community and increase new industries. We have people here who 
have come up with a great idea about putting the emergency 
lights at the lower level instead of the upper levels like they 
are today, and it is a big potential industry where we have it 
right here in Delaware. We have the people who now can change 
all of our street lights to solar rather than what they are 
today.
    So, I mean, there are businesses out there that have great 
ideas and capability, but may not have access to the money or 
the necessary research to bring it to fruition because we can't 
depend on the old industries to pull our economy up.
    The other thing I would say is, get the banks to loan more 
money, because if the money doesn't circulate in our economy, 
what do we think is going to happen? I know a lot of people who 
have great projects and they can't get loans. Of course, if the 
credit card companies want to give me more money, I will take 
that, too.
    Senator Carper. As it turns out, as you know, a lot of 
small businesses, especially entrepreneurs who are just getting 
started, use those credit cards to help get their funding.
    Mr. Baker. Bills.
    Senator Carper. That is their source of working capital, at 
least initially.
    Mr. Whitaker, do you want to close us out, please?
    Mr. Whitaker. When I worked at Siemens Telecommunications, 
I was a mechanical engineer in a firm that did electronics, 
full of electrical engineers. Right now, I am a facilities man 
and now responsible for public education. We are kind of the 
odd man out.
    The importance of that is, if we can't get the outside 
resources that the Federal Government or other agencies can 
provide, public education can't move forward because we are 
probably the exceptional facility group. So it is just 
important, I guess, to continue to spread the word, continue to 
raise the bar for efficiency, raise the bar on the engineers, 
hold them to the highest standards, and make them think out of 
the box, but thinking has to change.
    Senator Carper. Well, great. I am going to ask you, Mr. 
Whitaker, if you can stay around for a few minutes. I am going 
to ask you to spend a few minutes with our staff, who are 
behind me. I want to thank them for their work. They are doing 
great work on these fronts, not just here in Delaware, but 
really for our Nation through the work we do in the Senate and 
I am grateful to them for their support and energy that they 
bring to these tasks.
    Thank you for being the sermon, not just talking about what 
you are doing but actually showing us all what can be done and 
accomplished through collaboration and a lot of creativity. So 
we thank you for that.
    I appreciate especially the points that you have made here 
at the end as how we can be more effective going forward and 
how the Federal Government can be an even better partner as we 
go down the road.
    With that, I bid you hasta luego until the next time we get 
together. Thank you again for joining us today.
    I have a closing statement here. Given the time 
constraints, I don't think I am going to use it. We will just 
enter it for the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Carper appears in the 
Appendix on page 31.
---------------------------------------------------------------------------
    Thank you very much, and with that, this hearing is 
adjourned.
    [Whereupon, at 12:02 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
